    TIMELY ACTIONS NEEDED
TO IMPROVE DOT'S CYBERSECURITY
       Department of Transportation

        Report Number: FI-2011-022
       Date Issued: November 15, 2010




               Prepared by the
         Office of Inspector General
     U. S. Department of Transportation
                      Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Timely Actions Needed to Improve                                         Date:    November 15, 2010
           DOT's Cybersecurity
           Department of Transportation
           Report Number: FI-2011-022

  From:    Calvin L. Scovel III                                                         Reply to
                                                                                        Attn. of:    JA–20
           Inspector General

    To:    Chief Information Officer

           In May 2009, the White House reported the need to secure the Federal
           Government's digital infrastructure and its information—vital to the economy and
           national security—from compromise.1 The Department of Transportation’s
           (DOT) $3.1 billion annual information technology (IT) portfolio is one of the
           largest among Federal civilian agencies. DOT's IT budget covers over 400
           information systems across 13 Operating Administrations (OA),2 nearly two-thirds
           of which belong to the Federal Aviation Administration (FAA). The Department's
           financial systems manage and disburse approximately $90 billion in Federal funds
           annually.

           To protect the information systems that support Federal operations and assets from
           cyber threats, the Federal Information Security Management Act (FISMA) of 2002
           requires agencies to develop, document, and implement agency-wide information
           security programs. FISMA also requires agency program officials, chief
           information officers (CIO), and inspectors general to conduct annual reviews of
           their agencies' information security programs and report the results to the Office of
           Management and Budget (OMB).

           Consistent with FISMA and OMB requirements, our overall audit objective was to
           determine the effectiveness of DOT’s information security program and practices.
           Specifically, we assessed DOT’s (1) information security policy and procedures;
           (2) enterprise-level information security controls;3 (3) management of information

           1
             White House Report on Cyberspace Policy Review, May 2009.
           2
             For purposes of reporting under the Federal Information Security Management Act of 2002, we consider "Operating
              Administrations" to include all components listed in Exhibit B.
           3
             For purposes of this report, enterprise-level controls are controls that are expected to be implemented department-
              wide—security training, incident response and reporting, and configuration management—and are not system-
              specific.
                                                                                                                 2


security weaknesses; and (4) system-level security controls. As also required by
OMB, we provided various assessments and performance measures to OMB via its
Web portal.4

We conducted this audit between March 2010 and October 2010 in accordance
with generally accepted government auditing standards. Exhibit A details our
scope and methodology.


RESULTS IN BRIEF
During fiscal year 2010, DOT succeeded in providing security awareness training
to over 90 percent of its employees, including five OAs that provided this training
to 100 percent of their employees. Despite these accomplishments, the
Department has not made progress needed to address other critical areas. As a
result, DOT's information security program does not meet Federal requirements
and is still not as effective as it should be. In addition, the Department has
successfully addressed only 2 of the 27 recommendations we made in our last
report, issued in November 2009. The following provides details of our findings.

    1. The Office of the Chief Information Officer (OCIO) has not developed the
       required procedural guidance to augment the high-level security policy it
       issued in 2009 in order for Operating Administrations (OA) to manage
       information security effectively. Furthermore, some policy lacks important
       elements. For example, DOT's Chief Information Officer Policy (CIOP)
       does not address the reporting of contractor operated systems. In
       September 2010, the OCIO issued a revised plan of action and milestones
       (POA&M) policy that addressed many of our prior year concerns, but the
       policy incorrectly prioritizes weakness resolution by providing shorter
       timeframes for resolving low priority weaknesses than for resolving high
       ones. These various policy and procedure issues contributed to the other
       issues we identified.

    2. The Department has not made sufficient progress in implementing
       enterprise-level controls. For example, DOT is still unable to effectively
       track how many contractors it has on board, has no controls to confirm that
       all major security incidents reported to the Department of Homeland
       Security (DHS) were actually received by DHS, and does not have security
       baseline configurations for all of its systems.         Furthermore, the
       Department's Common Operating Environment5 (COE) compliance with


4
  OMB has designated this information as “For Official Use Only.” Consequently, our submission to OMB is not
   contained in this report.
5
  The COE provides network infrastructure support to DOT Headquarters and remote offices, except FAA and FMCSA
   field sites.
                                                                                                                    3


           Federal Desktop Core Configuration (FDCC) requirements,6 which
           prescribe secure settings for Windows XP software, actually declined since
           our last review. Only four OAs reported having tools to verify FDCC
           compliance. The Department's largest OA, FAA, does not use such tools
           and is unable to determine whether its networks comply with FDCC
           requirements. Our tests at FAA headquarters revealed numerous instances
           of FDCC non-compliance without the required documentation to justify the
           non-compliance.

       3. The Department has not effectively identified, tracked, or prioritized
          information security weaknesses in its POA&Ms to efficiently resolve these
          weaknesses. The Department tracked approximately 4,800 weaknesses but
          did not remediate 1,200 of them (25 percent) within approved timeframes.
          The Department also did not assign a scheduled completion date to 240
          weaknesses and an estimated remediation cost to 404 weaknesses.

       4. DOT did not establish adequate controls to protect its systems or to recover
          them in the event of a disruption. As of the end of fiscal year 2010, the
          Department had not certified and accredited 41 systems (approximately 10
          percent of the total number), including several high-impact systems, for
          operation. Our review of a statistical sample of 33 out of 436 systems
          found that approximately half had one or more of the following
          deficiencies: (1) the certification and accreditation did not meet National
          Institute of Standards and Technology (NIST) standards; (2) the
          contingency plan testing was insufficient; and/or (3) the required annual
          testing did not meet NIST standards. The Department also lacked adequate
          controls over continuous monitoring, oversight of contractor-operated
          systems, remote access and account management. For example, the
          Department does not use two-factor authentication to secure remote access
          to its systems. We also identified network accounts assigned to deceased
          individuals.

We are making a series of recommendations to assist the agency in establishing
and sustaining an effective information security program—one that complies with
FISMA, OMB, and NIST requirements. Exhibit C identifies recommendations
from our prior year report that the Department still needs to resolve.




6
    The National Institute of Standards and Technology, the Department of Defense, and the Department of Homeland
     Security developed security configuration settings for certain Windows operating systems, including XP. OMB
     mandated agencies to adopt these settings, which are referred to as FDCC requirements.
                                                                                                                    4


BACKGROUND
Ensuring a secure global digital information and communications infrastructure is
one of the President’s seven guiding principles in protecting the American people.7
As the White House has reported, both the Federal Government and the private
sector face new cybersecurity threats, including terrorists and international crime
groups that target U.S. citizens, commerce, critical infrastructure, and the
Government by attempting to compromise computer-based information.
Undeterred, these individuals could undermine national security and degrade civil
liberties.

In October 2008, we reported that the Department’s information security program
and practices were not effective.8 Specifically, we found that DOT had not
established adequate policies, procedures, and training to identify weaknesses in
information security and protect computer systems and networks or recover them
should an incident occur, including those containing personally identifiable
information (PII). We made 27 specific recommendations aimed at addressing
these deficiencies.    To date, DOT has addressed all but one of those
recommendations.

In November 2009, we reported that the Department had issued its information
security policy—the first step in building a sustainable information security
program—and improved the COE's FDCC compliance.9                   However, the
Department had not made sufficient progress in other areas. As a result, the
Department's information security program was not as effective as it should be and
did not meet all Federal requirements. We made 27 additional recommendations
for addressing critical vulnerabilities that would enable DOT to establish a more
mature information security program. Exhibit C lists these recommendations and
their implementation status.

New challenges emerged in 2010. Several congressional bills addressed concerns
over the effectiveness of FISMA and government-wide information security. The
Administration's interest in cybersecurity resulted in the appointment of a Cyber
Security Czar. OMB addressed criticism from various parties, including the
Government Accountability Office, that its FISMA metrics were not effective by
establishing new ones. These new metrics require OIG to assess information
security in the eight areas required by the previous metrics plus two new areas:
remote access, and account and identity management. For 2010, OMB did not
request the OIG to report on privacy issues.



7
  White House Issues: Homeland Security (www.whitehouse.gov/issues/homeland-security).
8
  Audit of Information Security Program, OIG Report FI-2009-003, October 8, 2008. OIG reports and testimonies can
   be found on our Web site at www.oig.dot.gov.
9
  Audit of DOT's Information Security Program and Practices, OIG Report FI-2010-023, November 18, 2009.
                                                                                                                     5


DOT’S INFORMATION SECURITY POLICY AND PROCEDURES
REMAIN INADEQUATE

FISMA requires each Department's Chief Information Officer to develop and
maintain information security policies, procedures, and control techniques to
address security requirements. In prior reports, we recommended revisions to the
information security policies that direct the security efforts by DOT's OAs.10
However, some of these policies remain in the review process, while the
Department has not initiated action on others. Meanwhile, the OAs have either
limited or no procedural guidance provided to instruct them on how to effectively
and consistently implement information security. In Table 1, we note areas that
the Department should consider in its development of adequate guidance to OAs.


Table 1: Deficiencies in Policy and Procedures
FISMA Security Program Area                                OIG's Evaluation
Certification and Accreditation (C&A)
of Controls
The assessment of security controls to                     C&A procedures do not sufficiently guide
determine if the controls have been                        agency personnel in effectively managing the
implemented effectively.                                   security for the life of the system.
Continuous Monitoring of Controls
Required as part of the security                           Continuous monitoring policy is
authorization process for ensuring that                    inappropriately high- level and does not
controls remain effective over time.                       sufficiently guide agency personnel in
                                                           identifying and documenting the security
                                                           controls inherited from other systems.
Plans of Action and Milestones
(POA&M)
Tracks the measures implemented to                         The revised policy emphasizes correcting low
correct security weaknesses to                             weaknesses in short timeframes while
eliminate vulnerabilities.                                 allowing considerably more time to correct
                                                           high and moderate weaknesses. No
                                                           guidance exists for categorizing weaknesses
                                                           or on the use of the central database for
                                                           documenting and tracking POA&Ms.




10
     DOT's 13 OAs are referred to in this report by their acronyms. For a list of the OAs and their' acronyms, see
     Exhibit B.
                                                                                             6



FISMA Security Program Area               OIG's Evaluation
Security Awareness and Specialized Training
Annual training required by FISMA for     The policy and procedures are not sufficiently
government and contractor personnel.      developed to guide OAs in identifying,
                                          tracking and validating contractors requiring
                                          annual security training.
Account and Identity Management
Controls for managing and monitoring      The departmental procedures are not
network accounts.                         sufficiently developed to guide OAs in
                                          establishing controls. For example, guidance
                                          does not address account naming standards.
                                          In addition, operating procedures for personal
                                          identity verification (PIV) cards are not
                                          complete. For example, these procedures do
                                          not address termination of PIV cards.
Configuration Management
Policy and procedures that ensure that    Does not include detailed guidance for
all system owners have implemented        managing policy requirements. For example,
approved security control baselines.      little guidance exists on the development of
                                          inventories of technology products and
                                          adoption of secure baselines. There are also
                                          no procedures for documenting and
                                          approving FDCC deviations.
Contractor Oversight
Monitoring of the effectiveness of        Neither policy nor procedures contain
support system security provided or       detailed guidance for reporting to OMB on
managed by contractors, or other          contractor-operated systems. The policy also
agencies or sources.                      does not provide standard contract language
                                          regarding contractor compliance with Federal
                                          security requirements.
Remote Access
Components for telework and remote        Policy and procedures on remote access do
access, including client devices,         not establish an effective approach to
servers, and internal resources, should   identifying, monitoring, tracking and validating
be secured against known weaknesses,      users and equipment that remotely access
including the lack of physical security   DOT networks and applications.
controls, use of unsecured networks,
connections between infected devices
and internal networks, and the
availability of internal resources to
external hosts.
Source: OIG Analysis
                                                                                                                            7


The lack of adequate department-wide guidance on addressing security
requirements increases the likelihood that OAs will create internal practices and
ad-hoc procedures which may not comply with OMB or DOT requirements.
Furthermore, the deficiencies in DOT’s information security policies and
procedures have contributed to the other weaknesses documented in this report.


DOT'S ENTERPRISE-LEVEL CONTROLS—SECURITY TRAINING,
INCIDENT REPORTING, AND CONFIGURATION MANAGEMENT
—ARE INADEQUATE

DOT's department-wide controls—those that must be implemented at the
enterprise level—are still inadequate. Because it cannot track the number of
contractors it has employed, DOT does not know how many of its contractors have
received the required security training. Though a significant number of employees
received specialized training, certain key employees did not. The Department has
not provided evidence that all security incidents, including those that may have
breached sensitive information, were reported to the Department of Homeland
Security. Furthermore, DOT did not demonstrate sufficient progress in its
management of configuration baselines, including the FDCC baselines for
Windows XP and Internet Explorer.

DOT Cannot Accurately Track Contractors' Security Awareness
Training

FISMA calls for the building and maintenance of comprehensive security
awareness training programs which ensure that, before receiving access to agency
information systems, all users11 are adequately trained in their security
responsibilities and how to fulfill those responsibilities. DOT policy requires that
Line of Business and OA CIOs ensure that all DOT information system users
receive basic security awareness training before being authorized to access the
system, and at least annual training thereafter, as well as updates on system
changes.

However, the Department has no system that effectively tracks all contractors
working for the Department. For example, the Department's Investigative
Tracking System12 (ITS) lists over 54,000 contractors in active status––41,000
more than the Department reported to us as having access to its networks. The
Department's Office of the Chief Information Officer (OCIO) and the Director of

11
     Users may include employees, contractors, foreign or domestic guest researchers, other agency personnel, visitors,
     guests, and other collaborators or associates requiring access.
12
     The Investigative Tracking System is intended to house the social security numbers of current DOT employees and
     active contractors and other personally identifiable information, including information on passports, visas and home
     addresses.
                                                                                        8


Security stated that ITS was not created to track active contractors, but rather to
store information related to pre-hiring background investigations of both
employees and contractors; this information is intended to remain stored as long as
the personnel remain employed with the Department. However, the officials
acknowledged that the Department has no authoritative system to track active
contractors and that ITS is the one system that could do this. The Office of
Security also informed us that they have requested that OAs assist them in
reconciling the numbers in ITS with the actual number of contractors working for
the Department. Until this reconciliation occurs, the Department will not have an
efficient and effective method of providing security awareness training to
contractors and tracking those contractors that have completed it.

Because OAs do not have capabilities for tracking all employed contractors, they
have no assurance that all contractors have received security awareness training.
Some OAs have developed their own methods for determining percentages of
contractors that have completed training, but these methods are labor-intensive
and rely on information from systems that do not contain reliable data. For
example, one mode stated that, based upon instruction from the Department, it
attempted to match contractor names in ITS, despite its known unreliability, with
those in COE's active directory and with self-assessments of numbers of its
employed contractors. As discussed below, however, COE's active directory also
has reliability issues. Because of the reliability problems in both ITS and the COE
active directory, using the two systems to identify active contractors is unlikely to
produce reliable data.

While ninety-five percent of approximately 58,000 DOT employees received
security awareness training in fiscal year 2010, over 3,000 employees did not.
Contractor tracking issues along with the incomplete training of employees in
security awareness represent significant security risks to the Department.
Personnel without security awareness training are more likely to become victims
of social engineering or commit acts that compromise information security.

Not All Department Employees with Significant                             Security
Responsibilities Receive Required Specialized Training

DOT policy requires OAs to determine the content of specialized security training
based on the specific requirements of their organization and the systems that
employees and contractors have access to. Specifically, DOT policies require
OAs to provide personnel that have access to system-level software––system
owners and system and network administrators––with specialized security training
adequate for performing their duties.

The Department reported 851 employees with significant security responsibilities.
Although DOT reported that these 851 employees received specialized security
                                                                                                                                                        9


    training, our analysis, as shown in Table 2, indicates that approximately 61
    personnel in key security related job categories did not receive the training,13
    including six OA Chief Information Officers, two modal Information Security
    Officers, and ten modal Authorizing Officials.

    Table 2: Job Functions and Employees Requiring Specialized
    Security Training a




                                                                                                                                         Not Reported
                                                                                                                              Reported
                                                                   MARAD




                                                                                                 PHMSA
                                               FMCSA




                                                                           NHTSA




                                                                                                                SLSDC
                                        FHWA




                                                                                         OST b



                                                                                                         RITA
                                 FAA




                                                       FRA




                                                                                                                        STB
                                                             FTA




                                                                                   OIG
    Categories
    Chief Information
                                  7     1      0       0     1     0       1       1      2      0       0      0       1     14         6
    Officer

    IT Security Officer          56     2      1       5     3     0       1       1      1      0       4      1       1     76         2

    System
                                  2    84      0       0     1     0       37      12     0      1       0      0       0     137        7
    Administrator

    System Designer/
                                100 82         0       0     7     0       0       3      0      17      0      0       0     209        8
    Developer

    Network
                                  4     0      0       0     0     0       1       0      2      1       0      0       0      8         9
    Administrator

    Database
                                  4     3      0       0     3     0       1       1      0      3       0      0       0     15         7
    Administrator

    Certification
                                  0    14      0       0     0     0       1       0      0      0       0      0       0     15         11
    Reviewer

    Authorizing Official
                                  0     1      0       0     0     0       1       0      0      0       0      0       0      2         11
    (AO)

    Other                       169 36         9       5     58    18      36      0     10      29      4      1       0     375 N/A


               Total            342 223 10             10    73    18      79      18    15      51      8      2       2     851 61

    Source: OIG Analysis
a
    See Exhibit B for full Operating Administration names.
b
    OST identified 15 personnel that received specialized security training and were included in the total, but
    we found that 12 of these 15 reported that the NSA security briefing was considered specialized training. It
    is our opinion, however, that this briefing does not comply with NIST.



    As we noted in last year's review, DOT policy does not identify specific job
    functions, such as the CIO, Information Security Officer, and Database

    13
         Our scope was limited to 8 job categories.
                                                                                                                    10


Administrator, that require specialized security training, As a result, the
Department is at risk of not appropriately securing its information systems.
Furthermore, without specialized security training, Department employees may
not develop the skill sets needed to perform their security responsibilities.


The Department's Reporting Process Does Not Ensure that All
Security Incidents Are Actually Reported to the Department of
Homeland Security

OMB policy requires that each security incident be reported to the Department of
Homeland Security's U. S. Computer Emergency Readiness Team (US-CERT).
According to DOT, when an incident occurs, the OA reports it to DOT's Cyber
Security Management Center (CSMC), which analyzes the report, categorizes the
incident by type, and reports each incident to US-CERT. Subsequently, US-CERT
generates a reference number for certain reported incidents. However, we found
that, of 2,859 incidents reported to US-CERT by DOT between July 1, 2009 and
August 15, 2010, 129 (4.5 percent) did not have a US-CERT reference number
(see Table 3) or other evidence to ensure receipt. We also found that 248 (8.7
percent) did not have corresponding US-CERT Report Dates.


        Table 3: Summary of Incidents Missing US-CERT
        Reference Numbers
                                                                         Incidents
                                                                          Missing
                                                                                            Percentage
                                                                         Reference
        US-CERT Categorya                                                Numbers
        Category 1: Unauthorized Access (e.g., PII
                                                                              18                  14
        breach)
        Category 2: Denial of Service (DOS)                                     0                   0
        Category 3: Malicious Code                                            99                  77
        Category 4: Improper Usage                                            11                    9
        Category 5: Scans/Probes/Attempted Access                               1                   1
        Total Security Incidents                                             129                 100b
        Source: OIG Anal ysis
    a
      U S - CE RT Ca te go r y 0 ( E x er ci s e /T es t) a nd Cat e go r y 6 ( U nco n f ir me d I n cid e n ts)
      we r e no t i n o ur a n al ys i s b eca u se t he y ar e no t r e q ui r ed to b e r ep o r t ed to US -
      CE RT .
    b
      T o tal s ma y no t ad d d ue to r o u nd i n g



Without a US-CERT reference number or an approved process to verify DHS
received the incidents, DOT cannot determine whether or not the DHS received
                                                                                                             11


the reports, undermining the Government’s ability to properly coordinate among
Federal agencies in order to defend against cyber attacks.

The Department Has Not Fully Met Configuration Standards

FISMA requires compliance with minimally acceptable system configuration
requirements for commercial software.             Configurations that meet these
requirements provide a baseline level of security and ensure the efficient use of
resources. Earlier in the year, we found that the Department's American Recovery
and Reinvestment Act (ARRA) websites had significant vulnerabilities resulting
from incorrect configurations.14 More recently, we found configuration
deficiencies in FDCC compliance, and the absence of a full implementation of
configuration baselines throughout the Department.              Without complete
implementation of configuration standards, the Department has little assurance
that it is sufficiently protecting its information systems from known, exploitable
software weaknesses. Inadequately configured software also increases security
vulnerabilities that could impact DOT’s mission and business operations.

Operating Administrations Are Not in Compliance with Federal Desktop Core
Configuration Requirements

OMB requires agencies that have deployed certain software, such as the Windows
XP operating system, to adopt NIST security configurations settings known as the
FDCC requirements. OMB also requires that departments meet all NIST
configuration settings in order for them to be 100 percent compliant. We
statistically sampled 63 employees that use Government-provided computers from
7,756 personnel in the Washington area. Based on this sample, we estimate that
the number of employees with FDCC compliant computers is somewhere between
0 and 283 out of the 7,756.15 In addition, all 14 individuals from one FMCSA
field site were selected based on geographical location and their Government-
provided computers were representative of FMCSA field sites throughout the US.
These remote computers were only 82 percent compliant for Windows XP and 70
percent for Internet Explorer. In aggregate, all the computers tested were 90
percent compliant for Windows XP, and 72 percent for Internet Explorer. None of
the computers tested were fully compliant with NIST settings. Table 4 shows the
controls tested, passed, and failed.




14
   ARRA Websites Vulnerable to Hackers and Carry Security Risks, OIG Report FI-2011-006, October 22, 2010.
   www.oig.dot.gov
15
   The estimate has a 90% confidence with a margin of error of 3.7%.
                                                                                                         12


        Table 4: FDCC Sample Test Results




                                                     Total Controls




                                                                       Total Controls




                                                                                        Total Controls
                                   Sampled
                                   Systems
                                   Number




                                                     Tested c




                                                                       Passed




                                                                                        Failed
        FAAa                             25
                Windows                             9,525              8,414            1,111
                Internet                            2,875              1,461            1,415
        FMCSA Field Site                 14
                Windows                             5,246              4,323               923
                Internet                            1,441              1,005               436
        ITS (COE)b                       34
                Windows                            12,954             12,411               543
                Internet                            3,468              3,169               299
        OIG                                2
                Windows                                 762               695                 67
                Internet                                204               200                     4
        STB                                2
                Windows                                 762               435              328
                Internet                                230               120              110
        Department Totals:               77
                Windows                            29,249             26,278            2,972
                Internet                            8,218              5,955            2,264
        Source: OIG
    a
      See Exhibit B for full Operating Administration names.
    b
      The Department consolidated Operating Administrations' network infrastructures (e-mail,
      desktop computing, and local area networks) into a common IT infrastructure.
    c
      Totals may not add due to rounding.



One of the Department's controls for ensuring the use of approved configuration
settings is creating a uniform image of desired FDCC control settings and applying
it to all workstations. However, we found numerous different FDCC settings
among workstations that were supposed to be identical. For example, FMCSA
                                                                                                                             13


had up to 12 different settings among its computers. While we did not determine
the cause for this variance, such differences can be caused by malware or viruses.

OMB requires agencies to use Security Content Automation Protocol16 (SCAP)-
validated tools to certify that their systems comply with FDCC standards.
Agencies are also required to manage and monitor the configuration of these
standards once deployed to personnel to ensure they are not modified. Only four
OAs reported 100 percent coverage of their systems using SCAP-compliant tools.
The remaining nine OAs, however, either had less than 100 percent coverage of
their systems or did not provide evidence of coverage. For example, FAA did not
use a SCAP tool to ensure FDCC compliance for its networks. Without valid
testing using approved tools, the degree of FDCC compliance may deteriorate and
expose the Department to unexpected vulnerabilities.

Deviations from preferred control settings do occur when an agency determines
that the settings impact operations, such as the running of legacy applications.
The implementation of such deviations requires high-level review and approval to
prevent exploitation of possible weaknesses created by the deviations. However,
DOT does not have an adequate process for approving deviations17 from FDCC
requirements. While the Department policy requires OAs to receive approval
from the Department's CIO for use of deviations, there is no guidance on how to
request a deviation. The majority of deviations noted in our testing had not been
approved. While FRA and SLSDC requested and received approvals for some
FDCC deviations, COE, FMCSA field sites, and PHMSA submitted deviations but
did not receive approvals. Other OAs, including FAA, had not submitted requests
for approvals. Without an adequate deviation approval process, the Department
cannot assess the necessity of such deviations or attempt to resolve them.

Operating Administrations' Configuration Management Procedures Do Not
Comply with NIST and DOT Policy

Nine OAs––FAA, FMCSA, FTA, MARAD, OIG, OST, PHMSA, RITA, and
SLSDC––have security configuration management procedures that do not align
with NIST and departmental policy. For example, PHMSA, FHWA, and FRA
have implemented standard baseline configurations, but not for all of the hardware
and software they use. Three of these OAs––FAA, OIG and RITA––have no
baseline configuration procedures to ensure the security of their systems.
Furthermore, none of these OAs' procedures has been reviewed in detail by OCIO
due to a lack of available personnel, and OCIO's focus on developing DOT's
Cyber Security Strategic Plan.

16
     NIST has created the SCAP program to work with the information technology communities to develop common
     configuration standards. As part of this program, NIST-accredited laboratories test tools and submit results to NIST.
     If the results are favorable, NIST validates the tool.
17
     A deviation occurs when the parameter for a particular setting is different from the approved parameter. OMB
     requires that such deviations be approved by the department or agency's accrediting authority.
                                                                                    14



OAs also should perform scanning to verify that system configurations are correct
and that security patches have been applied. Three OAs––FRA, STB, and
SLSDC––did not provide documentation of controls over their software scanning
capabilities. Five OAs––FHWA, FMCSA, FRA, FTA and RITA––did not provide
scanning evidence or confirmation for timely resolution of vulnerabilities. For
example, FAA's use of an unsupported Oracle database resulted in untimely
patching of the Department's financial system (Delphi) and rendered vulnerability
scanning ineffective for that system. In another example, SLSDC has no patch
management policy or procedure in place. Moreover, DOT has no department-
wide process for managing OA compliance with policy requirements pertaining to
inventories of technology products and corresponding security baselines.


THE DEPARTMENT CONTINUES TO LACK AN EFFECTIVE
PROCESS FOR REMEDIATING INFORMATION SECURITY
WEAKNESSES

FISMA requires a process for planning, implementing, evaluating, and
documenting remedial actions to address information security weaknesses. DOT's
process is ineffective due to its weaknesses in management oversight and its
incomplete POA&M database.

Last year, OCIO began meeting monthly with Operating Administrations to
address information security concerns. In fiscal year 2010, however, these
meetings were delayed until July 2010 because of changes in OCIO priorities. As
evidence of its oversight of OAs' remediation of security weaknesses, OCIO could
only point to its review of FHWA's POA&M status. This insufficient oversight of
OAs, in turn, contributes to the inadequate resolution of security weaknesses,
including the slow implementation of our prior year recommendations. As shown
in Table 5, there are:

   • 4,794 open POA&Ms or weaknesses;
   • 1200 weaknesses, or 25 percent, that are overdue, including 126 that are
     over 1 year overdue;
   • 240 weaknesses that have no scheduled completion dates;
   • 404 POA&Ms that did not identify the cost to remediate the weakness;
   • 3,594 weaknesses, or 75 percent, that had completion dates that exceeded
     policy time frames for remediating weaknesses in place at the time; some of
     these had completion dates scheduled for 4 years in the future.
                                                                                                                                                                           15


Table 5: Summary of Overdue POA&Ms




                                                                                                                           No Target Completion




                                                                                                                                                                     Future Scheduled
                                                                                            121 days - 1 year




                                                                                                                                                                     Completion Date
                                                                                                                                                     Total Overdue
                                                                          91 - 120 days
                            Total Open




                                                          61 - 90 days
                                           1 - 60 days
                            POA&Ms




                                                                                                                  > 1 yr


                                                                                                                           Date
    Operating
    Administrationa
    DOT Program             106            3              1               8                 3                   68                   5             88                    18
    FAA                    4170          267             78              62               365                     0              85               857                3313
    FHWA                    159            0              0               0                 1                     0                  0               1               158
    FMCSA                        2         0              0               1                0                     1                   0               2                       0
    FRA                        11          0              0               3                 6                     0                  2             11                        0
    FTA                        20          0              0               0                 1                     0                  0               1                   19
             b
    MARAD                   111            0              0               0                 0                     0         111                   111                        0
    NHTSA                        1         0              0               0                 1                     0                  0               1                       0
    OIG                        17          8              1               0                 4                     2                  0             15                        2
    OST                        71          6              0               2                 6                     2                  0             16                    55
    PHMSA                      22          1              1               0                 0                     0                  0               2                   20
    RITA                       32          4              0               0                 0                     1              18                23                        9
    SLSDC                        5         1              0               0                 0                     0                  4               5                       0
    STB                        67          0              0               0                 0                   52               15                67                        0
            Total          4794          290             81              76               387                   126         240                   1200               3594
             Percentage                  6%              2%              2%               8%                    3%            5%                  25%                75%
    Source: DOT Open POA&Ms in Cyber Security Assessment and Management
    (CSAM) system as of August 18, 2010
a
    See Exhibit B for full Operating Administration names.
b
    111 POA&Ms reported by MARAD were not assigned a scheduled completion date.

Based on the policy in effect at the time of our review, all 4,794 open POA&Ms
were, or were expected to become, overdue. The policy required high-priority
weakness to be resolved within 24 hours, moderate-priority ones within 20
working days, and low-priority ones in approximately 3 months. In September
2010, OCIO issued new POA&M policy that significantly changed the timeframes
for resolution of weaknesses. However, because of its shorter timeframe for
resolving low-priority weaknesses, the policy will likely result in the resolution of
low priority weaknesses before high ones. Table 6 summarizes the changes in
timeframes.
                                                                                     16



Table 6: Changes to Remediation Time Requirements
                  Prior Policy--
 POA&M            DOT Order 1351.6, Section     Current Policy--
 Categorization   4.5 POA&Ms                    DOT Order 1351.30
                                                Develop a remediation plan within
 High             Remediate within 24 hours
                                                90 working days
                  Remediate within 20 working
 Moderate                                       Remediate within 90 working days
                  days
                  Remediate within 60 working
 Low                                            Remediate within 30 working days
                  days
Source: OIG



Furthermore, Operating Administrations did not record all identified security
weaknesses in the Department's POA&M database for 20 of the 33 systems that
we selected for this year's review. In particular, MARAD did not input any known
security weaknesses in the POA&M database, including the deficiencies in its
systems' certification and accreditation reported last year.

Without a compliant POA&M process, the Department cannot ensure that its
systems are adequately secured and protected. Weaknesses that remain
unaccounted, unresolved or unmitigated for extended periods of time allow for
unnecessary vulnerabilities and exposures that may be exploited, or may otherwise
compromise the availability or integrity of systems and data. Furthermore,
establishing tighter time frames to address only low priority weaknesses could
result in high priority weaknesses requiring more time than necessary to resolve.


THE DEPARTMENT'S SYSTEM-LEVEL CONTROLS ARE NOT
ADEQUATE TO PROTECT THE SYSTEMS OR ENSURE
RECOVERY

System-level controls protect the security of information systems and ensure that
they can be recovered should a serious security breach occur. However, the
Department does not effectively manage these controls. Specifically, we found
the Department does not know how many systems MARAD owns; certification
and accreditation as well as contingency plan testing are incomplete; continuous
monitoring is ineffective; oversight of contractor-operated systems is inadequate;
controls over remote access are deficient; and controls over account and identity
management are also deficient.
                                                                                       17


The Department Does Not Know How Many Systems MARAD Owns

FISMA requires agencies to develop, maintain, and annually update inventories of
the major information systems, including interfaces to external systems that they
operate or control. Agencies can then use the inventories to track their systems for
annual testing and evaluation, and contingency planning. Developing a complete
and accurate inventory of major information systems is an agency's first step in
managing its information technology resources, including security.

For FY 2009, we reported that MARAD did not use an appropriate methodology
in developing its system inventory. For FY 2010, MARAD has been unable to
provide an accurate inventory of its systems. In April 2010, MARAD informed us
that it had 18 systems. More recently, the Agency informed us that its system total
was anywhere between 23 and 83. MARAD is conducting a review of the number
of systems it has and the number of certifications and accreditations it needs to
perform. Without a well developed inventory, it is almost impossible to determine
whether or not system-level controls are implemented or effective, or to track
system security metrics. Furthermore, as system changes occur, it is difficult to
reassess system-level controls and to enforce system-level security.

Certification and Accreditation and Contingency Plan Testing Are
Incomplete

OMB Circular A-130, Appendix III, Security of Federal Automated Information
Resources, requires that systems be reauthorized (i.e., accredited) at least once
every 3 years. As of September 30, 2010, at least 41, or 10 percent, of the
Department's systems are unaccredited, meaning they were not authorized to
operate. Table 7 lists the OA, system name, and date of certification and
accreditation expiration for all unaccredited systems, except MARAD, which has
at least 23 unaccredited systems, all of which continue to operate.
                                                                                                                             18


    Table 7: Summary of DOT Systems with Expired Certification
    and Accreditation
                                                                                         Expiration        Total
     OAa               System Name
                                                                                         Date              Systems
     FMCSA             CoTs DOT ECOM LAN                                                 2/07/2010
                       CoTs DOT LAN                                                      2/07/2010
                       Performance and Registration Info. Sys. Mgmt.                     4/26/2010
                       Electronic Information System (EMIS)                              6/11/2010
                       Electronic Document Mgmt Sys (EDMS)                               6/15/2010
                       Query Central (QS)                                                6/15/2010
                       Commercial Vehicle Info. Sys and Networks                         6/22/2010
                       Compass                                                           8/27/2010                8
         FRA           Controlled Correspondence Manager (CCM)                           9/06/2010
                       Web Information Services (WIS)                                    9/06/2010
                       Automated Track Inspection Program (ATIP)                         9/21/2010
                       GradeDec.Net                                                      9/21/2010
                       Railroad Safety Advisory Committee (RSAC)                         9/22/2010                5
     OIG               US DOT/OIG Infrastructure                                         8/28/2010
                       US DOT/OIG TIGR System                                            9/18/2010                2
     RITA              RITA- Web                                                         5/31/2010
                       RITA- Mission Support                                             7/30/2010
                       RITA- TSI Infrastructure                                          1/02/2010                3
     MARAD         Multiple Systems                               N/A              23b
                   Total DOT Systems with Expired C&As                             41
    Source: DOT Expired C&As in Cyber Security Assessment and Management (CSAM) system as
    of September 30, 2010
a
    See Exhibit B for full Operating Administration names.
b
    Estimate



    We statistically selected 30 out of 436 systems reported to us. We reviewed 33
    systems because one system was made up of 4 subsystems. The results of the 33
    are summarized in Table 8. Based on this sample, we estimate that 170 (39
    percent) would not fully meet the C&A requirements cited in NIST 800-37, 109
    (25 percent) would be deficient in annual testing,18 and 196 (45 percent) would not
    be compliant at contingency planning and testing.19




    18
       Subsequent to the initial authorization of the entire information system, OMB requires agencies to test subsets of
       their security controls annually, as part of continuous monitoring.
    19
       This estimate has a 90-percent confidence level with a margin of error for DOT C&A of +/-19.5, for security control
       testing of +/–16.8, and for contingency planning and testing of +/-20.2.
                                                                                                                     19


    Table 8: Results of Review of Sample of 33 Systemsa




                                                             MARAD


                                                                        NHTSA
                                                  FHWA




                                                                                                Total
                                                                                         RITA
                                                                                   OST
                                       FAA




                                                                                                        Percentage
    Number of Systems
                                      15          4          7          4          2     1      33
    Sampled

    Systems without
    C&As or with                       8          0          7          0          0     1      16      48%
    deficient C&As

    Systems without
    sufficient annual                  5          0          7          0          0     1      13      39%
    testing
    Systems without
    comprehensive
                                      10          0          7          0          0     1      18      55%
    contingency plans and
    testing
    So ur ce : OI G Ana l ys i s
a
    Se e E x hib it B fo r f u ll Op er a ti n g Ad mi n i str at io n n a me s.



    Without proper certification and accreditation, the Department lacks a crucial
    management control that ensures that systems are properly assessed for risk, have
    been independently tested, and that system weaknesses have been identified and
    sufficiently mitigated. Without this control, management cannot ensure that
    systems are operating without unacceptable risks or weaknesses. Furthermore,
    without complete security and contingency testing, systems may operate with new
    or unresolved weaknesses and may not be recoverable in time to minimize
    business disruption.

    The Department's Continuous Monitoring Is Ineffective

    As noted in our prior report, the Department's policy and procedures on
    continuous monitoring were not sufficiently detailed to guide agency personnel to
    conduct effective continuous monitoring of security controls. For FY 2010, OCIO
    noted that the planned revisions to these departmental procedures will not be
    implemented until November 2012. Furthermore, the Department does not have
    an approved strategic plan for continuous monitoring. Without these department-
    wide procedures, OAs have acted on their own. FAA, FHWA, FMCSA, FRA, and
    NHTSA developed internal guidance. Overall, however, the OAs are not acting in
    compliance with existing OMB guidance. For example:
                                                                                    20


   • 12 out of 13 OAs did not effectively review, monitor and validate security
     controls;
   • 9 OAs do not incorporate continuous monitoring results into security status
     reports or use them to update C&A documents (Security Plan, Security
     Assessment report, POA&M);
   • 9 OAs do not provide authorizing officials and others reports on continuous
     monitoring.

The lack of procedures for comprehensive continuous monitoring limits OAs'
abilities to adequately monitor, in a timely manner, the security of their
information systems. It also diminishes their abilities to respond quickly to new
threats, and may affect how well the Department can implement security solutions
in its highly dynamic environment.

The Department's Oversight of Contractor-Operated Systems Is
Inadequate

For 2010, OMB required OIGs to determine whether agencies had established and
were maintaining oversight programs for systems operated by contractors or other
entities, including inventories of such systems. The Department's methods of
identifying contractor-operated systems and related interfaces do not comply with
OMB's requirements. Furthermore, some of its information technology contracts
do not include language requiring conformance to FISMA.

The Department Does Not Identify Its Contractor-Operated Systems in
Accordance with OMB Guidance

The Department's inventory of contractor systems decreased from 46 to 33
between fiscal years 2009 and 2010, as shown in Table 9. This decrease occurred
due to OCIO's instruction to the OAs to count as contractor systems only those
that are both owned and operated by contractors. This new definition is not
consistent with OMB's guidance, which defines a contractor system as any system
operated on an agency's behalf by a contractor or other entity. Furthermore,
according to OCIO, no established process exists for reviewing and ensuring the
accuracy of OAs' reporting on contractor systems. As a result, OCIO was not
aware of inconsistencies in the reporting. Contractor-operated systems represent
additional risks to the Department because it frequently does not manage security
controls in such systems. Without an accurate inventory of these systems, the
Department cannot effectively manage the risks.
                                                                                       21


              Table 9: FY 2009 and 2010 Comparison of
              Contractor Systemsa
                                  FY 2009            FY 2010         Difference
               FAA                  10                 13                  3
               FHWA                   1                 0                 (1)b
               FMCSA                  3                 4                  1
               FRA                    6                 6                  0
               FTA                    5                 0                 (5)c
               NHSTA                  2                 2                  0
               OST                  14                  4               (10)b,c
               PHMSA                  3                 3                  0
               RITA                   2                 1                 (1)b
                  Total:            46                 33                (13)
              Source: OIG
          a
            See Exhibit B for full Operating Administration names.
          b
            Retired
          c
            Re-defined from contractor operated



Some IT Contracts Do Not Contain Clauses Regarding FISMA Compliance
Requirements

FISMA and OMB require agencies to ensure that contractors comply with Federal
information security requirements. However, OCIO's policy and guidance do not
address the inclusion of specific clauses in contracts to ensure that the Department
incorporates Federal security requirements into its information technology
procurements. For example, we found contracts that did not incorporate Federal
computer security language. Furthermore, even though FAA has a standard clause
for FISMA compliance, we found that six out of eight FAA contracts did not
incorporate this clause. Finally, 12 OAs did not provide evidence that they
develop and manage their contractor interface agreements in compliance with
OMB policy.

Without the required contract language, up-to-date interface agreements, and
oversight, DOT cannot enforce compliance with important information security
requirements, or ensure that security risks are reduced in a cost-effective and
consistent manner.

The Department's Controls Over Remote Access Are Deficient

NIST provides guidance for agencies on controlling remote access to their
systems. In 2007, OMB announced the Trusted Internet Connection (TIC)
initiative to reduce and consolidate the number of external access points, including
                                                                                    22


Internet connections, and ensure that all external connections are routed through
an OMB-approved TIC.

We found that the Department's remote access controls are deficient.         For
example:

   • Home computers can be used for internet access to DOT's systems.
     However, DOT's policy does not provide clear guidance on the safe use of
     home computers for this access, and only requires users from home to have
     IDs and passwords for identity authentication in order to gain access. With
     the exception of FAA, which requires identification tokens in some
     instances, there is no multi-factor identity authentication in use at DOT.
   • Home computers used to access DOT applications are checked for up-to-
     date operating system patches and virus protection, but they are not
     checked for FDCC compliance.
   • DOT does not conduct real-time monitoring and authentication of
     equipment that remotely accesses its networks to ensure that only
     authorized devices are able to connect.
   • FAA has an informal agreement that all employees who have faa.gov email
     accounts will be provided remote access to their email accounts. FAA is in
     the process of developing a plan to revise its remote access policy and
     provide it to its CIO for guidance.
   • DOT policy lacks specific requirements on use of wireless access to DOT
     networks; OCIO reported that this policy is currently in revision but
     provided no completion date.
   • CIO does not plan to complete routing all agency external connections
     through approved Trusted Internet Connection access points until after
     2011.

Without effective controls over remote access, DOT cannot ensure that only
authorized computers and personnel are accessing its information systems. As a
result, there is an increased risk that unauthorized users will deploy malware on
DOT's networks or extract sensitive information.

The Department's Controls Over Account and Identity Management
Are Deficient

NIST provides guidance for network accounts and identity management. In May
2009, DOT OCIO issued Department-wide policies to implement security controls
for account management, and user identification and authentication. These
policies state that Lines of Business/OAs are responsible for implementing the
policies' requirements, and that the Chief Information Security Officer should
validate compliance with the procedures. We reviewed four networks that service
about 54,000 users and found that the Department's account and identity
                                                                                                                              23


management controls are deficient in several areas, including disabling of
accounts, distinguishing between user and non-user accounts, using multi-factor
authentication, and using dual accounts for administrators.

Network Administrators Do Not Disable Accounts in a Timely Manner

DOT OCIO policy states that information systems should disable user identifiers
after 30 days of inactivity for high-impact systems20 and 60 days for
moderate-impact systems. It further states that all system accounts should be
configured to automatically lock out inactive users within a specific period of time
not to exceed 90 days. Of the approximately 54,000 accounts we reviewed, we
found that about five percent had not been disabled after the required period of
inactivity. See Table 10 for a description of these accounts. We also found two
active accounts whose users were deceased.

     Table 10: Accounts That Were Not Disabled in a Timely
     Manner
                                          Disabling                                    User            Non-User
         System Name
                                             Period                  Total         Accounts            Accounts

         COE LANa                         > 30 days                    898                  898         See Note a.


         Volpe Center LAN                 > 60 days                    240                  118                 122
                          b
         USMMA LAN                        > 60 days                    258                  189                   69

         FAA/ATO LAN                      > 60 days                  1,432               1,238                  194

                      Total                                          2,828               2,443                  385
         Source: OIG
     a
         User and non-user accounts were not segregated by COE.
     b
         USMMA LAN store, process, and transmit PII.

The primary cause of these account problems is the inadequate use of tools that
automatically disable accounts after a certain length of time of inactivity. The
United States Maritime Marine Academy (USMMA) and John A. Volpe National
Transportation Systems Center (Volpe) did not use any automated mechanism to
disable its inactive accounts. Both COE LAN and FAA's ATO have implemented
tools to manage their Active Directories that are not properly configured to disable
accounts within the proper timeframes. Not disabling accounts in a timely manner
may lead to unauthorized access to information and systems by individuals who
are no longer authorized to have access.

20
     "Impact" refers to the impact that loss of a system's confidentiality, integrity, or availability could be expected to
     have on organizational operations, assets, or individuals. "High impact" would have a severe or catastrophic adverse
     effect, whereas "moderate impact" would have a severe adverse effect.
                                                                                                 24


Network Administrators Do Not Properly Distinguish Account Types

NIST requires agencies to segregate account types (individual, group, system,
application, guest/anonymous, or temporary), and distinguish account types
between user and non-users. However, the networks we reviewed had not
accomplished these requirements because their administrators did not follow the
OAs' naming standards when establishing accounts. Table 11 provides examples
of inconsistent account names among the networks reviewed. Without accurately
identifying user accounts and non-user accounts, the Department cannot properly
control access to its information systems.

Table 11: Summary of Account Naming Errors
Net w o r k   Ac c o u n t Na mi ng        Co rr e ct l y N am ed   In c o r r e ctl y N am ed
              St an d a rd                 Ac c o u n t s           Ac c o u n ts
COE           Federal:

              first.last                   alan.walsh               walsha
                                           curtis.johnson           Curtis.Johnson2

              Contractors:

              first.last.ctr               jean-marie.tchokok.ctr   j.tchokok.ctr

              Naming convention for                                 Sptest
              service accounts were not                             SRS.Web
                                           Unknown
              specified                                             DOTMOSS.Sql

FAA/ATO       Service Accounts must        SRVC-BEuser              BEuser
              contain "SRVC" in front of   SRVC-Backup              Backup
              the account name.            SRVC-MCUser              MCUser
                                           SRVC-ORDBackup           ORDBackup

USMMA         Midshipmen structure:

              2digityearLastNameFirstIni    07DiehlE                 diehle
              tialMiddleInital              08BellE                  08bellE
                  10LastFM                  13HumeZA                 13HUMEZA


              Non-midshipmen
              structure:

              LastNameFirstInitial         AnthonyS                 anthons
                 LastF                     VendittoJ                joanna.venditto
                                           LiG                      li(contractor)
Source: OIG
                                                                                        25


The Department Has Not Implemented Multi-Factor Authentication for Identifying
Users

Department officials in charge of the four networks reviewed indicated that multi-
factor authentication would not be implemented until they completed PIV card
issuance. The Department agreed with OMB to complete card issuance by
December 31, 2010. However, DOT's current plan to issue cards to non-FAA
personnel lacks detail on issues such as resources, responsible parties, and risk
management, without which the department cannot ensure that the timeframe is
realistic. Currently, the four reviewed networks only use user IDs and passwords
to allow access to their systems. USMMA is planning to implement multi-factor
authentication for Federal employees and contractors, but not for midshipmen or
four-year students, despite the fact that USMMA LAN stores, processes, and
transmits PII. Because multi-factor authentication has not been implemented, the
DOT cannot fully identify and authenticate authorized users. Individuals who are
not properly authenticated may be capable of sharing user IDs and passwords
which could lead to identity fraud, counterfeiting, organizational espionage, social
engineering, Internet misuse, and misuse of personal information.

Not All Network Administrators Have Dual Accounts

NIST guidance requires agencies to separate duties through assigned system
access authorizations including different accounts for different roles. For
example, a system administrator who has an email account on the network he or
she administers should have an administrator account and a user account. This
individual would only use the user account to access email. Administrators of two
of the networks we reviewed did not have user accounts. For example, COE
administrators do not use separate accounts to perform non-administrator tasks.
Because administrator accounts have greater access to computer resources, using
such accounts to perform non-administrator functions increases the likelihood that
malware, such as viruses, will infect DOT networks.


CONCLUSION

DOT operates in a world in which information systems are part of every solution,
and the Internet has connected almost every network. As a result, the
Department's success is dependent on its ability to keep its networks available to
its legitimate users, and to protect itself from those who, from almost any location,
may seek to gain unauthorized access to its information or disrupt its operations.
As technology progresses, so do the risks involved in its use and the need to
maintain a state-of-the-art cybersecurity program that can respond quickly and
effectively to any threat. To mature towards such a program, DOT must
immediately address its persistent cybersecurity weaknesses with strong
leadership, greater influence and oversight by DOT OCIO, and management
                                                                                      26


commitments from OA Administrators. Until this happens, DOT will continue to
remain vulnerable to predators.


RECOMMENDATIONS

Recognizing the challenges to develop an effective and mature information
security program from what DOT has currently in place, we are providing a
number of actions that, combined with our prior year recommendations, may serve
as a roadmap to address urgent vulnerabilities currently inherent in the program.
To mitigate these weaknesses and enable DOT’s information security program
evolution towards an appropriate level of maturity, we recommend that the Chief
Information Officer do the following:


Information Security Policy:

   1. Address these policy and procedural weaknesses:

      o Develop procedural guidance for the C&A process. In addition, modify
        existing certification and accreditation policy and procedures to address
        inheritance of common information security controls, and to provide
        procedural guidance to modes.
      o Correct POA&M policy to prioritize weaknesses in a way that ensures
        that high priority weaknesses are resolved before medium priorities, and
        medium ones before low ones. In addition, develop procedural
        guidance to ensure consistency of the POA&M process and to facilitate
        CIO's oversight and management of weaknesses.
      o In conjunction with the modes, develop procedural guidance for
        tracking and training personnel with significant security responsibilities.
        This guidance should address maintaining complete inventories of such
        personnel, and the training needed and provided.
      o Enhance high-level policy with procedural guidance to ensure
        consistency of the network accounts and identity management.
      o In conjunction with the Assistant Secretary for Administration,
        complete Department-wide PIV operating procedures, including
        procedures to terminate PIV cards.
      o Review and revise all configuration management policy and develop
        specific details for activities that are common across the department. As
        part of this effort, develop procedural guidance that would define
        requirements for OAs to use when developing configuration
        management procedures specific to their operation.
                                                                                        27


      o Develop procedural guidance that would define requirements for OAs to
        use when developing incident handling procedures specific to their
        operation.
      o Enhance policy and procedural guidance to incorporate detailed
        guidance for managing, monitoring and reporting FDCC compliance,
        including the use of SCAP tools to ensure FDCC compliance.
      o Once policy adequately addresses contractor oversight per
        Recommendation 4 of last year's report, develop relevant procedural
        guidance. This policy should establish the criteria and guidelines for
        DOT’s identification and reporting of contractor systems consistent with
        OMB requirements.
      o Enhance high-level policy with procedural guidance to ensure remote
        access and wireless networking is authorized, managed and monitored
        in compliance with OMB, NIST and DOT policies.

   2. To the extent the OAs require their own guidance, review guidance to
      verify compliance with department policies and procedures.


Enterprise-Level Weaknesses:

   3. Implement a quality assurance process to review OA specific configuration
       management procedures to ensure that they adhere to the departmental
       policy and Federal requirements.
   4. Implement a process to review OAs security configuration management
       practices and software scanning capabilities. Provide monitoring of OAs
       practices to ensure they are adhering to the policy and practices.
   5. Require OST to implement required system patches on their Delphi system.
   6. Conduct scanning of all DOT networks to ensure compliance with FDCC
       requirements. In addition, review results of modal SCAP compliance scans
       to identify and resolve incorrect FDCC settings.
   7. Require and approve deviation requests for those non-conforming settings
       that are truly needed and for which risks have been mitigated and accepted.
   8. Conduct periodic tests to assess FDCC compliance and deployment of
       patches, including service packs.
   9. Analyze the incorrect FDCC configuration settings identified in our testing,
       and for those that do not have approved deviations, require OAs to create
       POA&Ms to correct the settings.
   10. Implement a practice to review OA specific incident handling procedures to
       ensure that they adhere to the departmental policy.
   11. Implement a process to review reported incidents to ensure timely reporting
       to US-CERT. In addition, provide monitoring of incidents reported to
       ensure all required data in the tracking system(s) is up-to-date for incidents
       sent and data received back for US-CERT.
                                                                                        28


   12. Review FHWA, FMCSA, FRA, FTA and RITA automated scans
       confirming timely resolution of vulnerabilities. If deficiency is found
       require OA to provide corrective action and to update plan of actions and
       milestone to address weakness.
   13. Require OAs to reconcile their contractor records with DOT security
       department and update their records accordingly. Monitor and report to the
       Deputy Secretary, Operating Administrations’ progress in resolving the
       discrepancy with their contractor records and DOT security department.
   14. Identify and implement automated tools to better track contractors and
       training requirements.


Information System Security Weaknesses:

   15. In conjunction with the MARAD, create a POAM for each system that is
       missing a certification and accreditation. This POAM should be properly
       prioritized to ensure this critical matter is immediately addressed.


Information System Security:

   16. In conjunction with MARAD, promptly update Cyber Security Assessment
       and Management (CSAM) system to reflect its current system inventory
       and related information (including status of certification and accreditation).
   17. Work with MARAD to finalize agreements with C&A service providers to
       certify MARAD systems.
   18. Review the results of OA assessments to determine an accurate inventory
       of contractor systems.
   19. Work with the Department's acquisition personnel to develop common
       contract language that requires IT contractors to enforce applicable FISMA
       and OMB requirements. Once this language is approved, review all new
       planned IT acquisitions, prior to award, to verify that this clause is
       contained in the statement of work or comparable document.
   20. Research and standardize automated tools that will proactively monitor
       remote devices connecting to DOT networks.
   21. Conduct tests of remote access solutions to ensure they comply with
       Federal requirements and DOT guidance.
   22. In conjunction with the Assistant Secretary for Administration, develop a
       Department-wide implementation plan that specifies resources needed,
       responsible parties, strategies for risk mitigation, etc., to ensure that all
       employees and contractors receive PIV cards by December 31, 2010.
   23. Implement the use of PIV cards as the primary authentication mechanism to
       support multi-factor authentication at the system and application level for
       all DOT's employees and contractors.
                                                                                      29


   24. Perform periodic reviews of active user accounts and network devices to
       identify accounts that need to be disabled.
   25. Work with OAs to identify and logically segregate user accounts and
       service (role) accounts.
   26. Work with OAs to implement automated mechanisms to disable inactive
       accounts, as specified by DOT policies, and to audit account creation,
       modification, disabling, and termination actions.
   27. Educate and assist OAs in implementing dual accounts for administrators.
       Subsequently, conduct reviews to determine that all DOT GSSs use these
       accounts.



MANAGEMENT COMMENTS

A draft of this report was provided to the Department’s CIO on November 3rd,
2010. On November 11th, 2010 we received the Department CIO’s response,
which can be found in its entirety in the Appendix.


ACTIONS REQUIRED

In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your detailed action plans and target dates for the
recommendations in this report within 30 calendar days. We will review the Chief
Information Officer’s detailed action plans when provided to determine whether
they satisfy the intent of our recommendations. All corrections are subject to
follow-up provisions in DOT Order 8000.1.C. We appreciate the courtesies and
cooperation of the CIO Office and the Operating Administrations’ representatives
during this audit. If you have any questions concerning this report, please call me
at (202) 366-1959; Lou E. Dixon, Principal Assistant Inspector General for
Auditing and Evaluation, at (202) 366-1427; or Earl Hedges, Acting Assistant
Inspector General for Financial and Information Technology Audits, at (410) 962-
1729.



cc: Deputy Secretary
    Assistant Secretary for Budget and Programs/Chief Financial Officer
    CIO Council Members
    Martin Gertel, M-1
                                                                                     30


EXHIBIT A. Scope and Methodology

The Federal Information Security Management Act of 2002 (FISMA) requires that
we perform an independent evaluation to determine the effectiveness of the
Department’s information security program and practices. FISMA further requires
that our evaluation include testing of a representative subset of systems and an
assessment, based on our testing, of the Department’s compliance with FISMA
and applicable requirements. On April 21, 2010, the Office of Management and
Budget (OMB) issued M-10-15, FY 2010, Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management, which
provides instructions for inspectors general for completing their FISMA
evaluations and the required OMB template. For 2010, OMB has required the use
of a common Web portal to upload its required metrics—a significant number of
which have changed.

To meet FISMA and OMB requirements, we selected a representative subset of 33
departmental systems (see Table 12) and reviewed the compliance of these
systems with NIST and OMB requirements in the areas of risk categorization,
security plans, annual control testing, contingency planning, certification and
accreditation, incident handling, and plans of actions and milestones. To evaluate
FDCC compliance within the Department, 77 individuals within Washington area
with government-provided computers were tested for Windows, Internet Explorer
and Windows firewall compliance. We used a NIST-approved SCAP tool to
perform these evaluations. Our sample of 77 individuals included 63 statistically-
selected individuals, and all 14 individuals from the FMCSA remote site which
was selected based on geographical location and is representative of FMCSA
remote sites throughout the US.

In addition, for account and identity management, we reviewed four general
support systems (GSS): (1) Common Operating Environment (COE) Local Area
Network (LAN), (2) Volpe Center LAN, (3) U.S. Merchant Marine Academy
(USMMA) LAN, and (4) Federal Aviation Administration/Air Traffic
Organization (FAA/ATO) LAN. We also conducted testing to assess the
Department’s inventory, its overall process of resolving information security
weaknesses, configuration management, incident reporting, security-awareness
training, remote access, and account and identity management. Our tests included
analysis of data contained in the Department’s Cyber Security Assessment and
Management system, reviews of supporting documentation, and interviews with
departmental officials. We also used commercial scanning software to assess
compliance with Federal Desktop Core Configuration requirements.




Exhibit A. Scope and Methodology
                                                                                  31


Table 12: OIG’s Representative Subset of DOT Systems
                                                         Impact      Contractor
 Operating
                                                          Level       System?
 Administrationa System
 FAA             110A (110A Inspector Credentials)        High          No
                 ANICS (Alaskan NAS Interfacility
                                                        Moderate        No
 FAA             Communications System)
                 ATOS (Air Transportation Oversight
                                                          High          No
 FAA             System)
                 BMX (Business Management
                                                        Moderate        No
 FAA             Solutions)
                 CMIS (Certificate Management
                                                          Low           No
 FAA             Information System)
                 CMRIS (Consolidated Management
                                                          Low           No
 FAA             Resource Information System)
                 CSMC Intrusion Detection Prevention
                                                        Moderate        No
 FAA             System, IDPS (DR, NIDS, & WIDS)
 FAA             FDIO (Flight Data Input/Output)          Low           No
 FAA             FPPS (Facility Power Panel System)       Low           No
                 FSIMS (Flight Standards Information
                                                          High          No
 FAA             Management System)
                 FSTNA (Flight Standards Training
                                                        Moderate        No
 FAA             Needs Assessment)
                 GIMS (GNAS Information
                                                          Low           No
 FAA             Management System)
                 LERIS (Labor and Employee
                                                        Moderate        Yes
 FAA             Relations Information System)
                 OPSS (Operations Specifications
                                                          High          No
 FAA             Sub-System)
 FAA             SOAR (System of Airport Reporting)     Moderate        No
                 Delphi Interface Maintenance System
                                                          High          No
 FHWA            (DIMS)
 FHWA            Knowledge Management                   Moderate        No
                 User Profile and Access Control
                                                          High          No
 FHWA            System (UPACS)
 FHWA            Video Conferencing System                Low           No
                 Cadet Training Berthing System            Not
                                                                        No
 MARAD           (CTBS)                                Categorized
                 Cargo Preference Overview System          Not
                                                                        No
 MARAD           (CAPOS)                               Categorized
                 Credit Program Portfolio Management       Not
                                                                        No
 MARAD           System (CPPMS)                        Categorized
                                                           Not
                                                                        No
 MARAD           MARAD Common Infrastructure (MCI)     Categorized
                                                           Not
                                                                        No
 MARAD           MARAD Internet                        Categorized
                                                           Not
                                                                        No
 MARAD           Marine View (Marview)                 Categorized


Exhibit A. Scope and Methodology
                                                                                                     32



                                                                       Impact       Contractor
     Operating
                                                                        Level        System?
     Administrationa System
                                                                        Not
                                                                                        No
     MARAD               Virtual Office Acquisition (VOA)           Categorized
                         Mission Based Moderate Impact
                                                                      Moderate          No
     NHTSA               Systemb
                         Congressional Reporting
                         Requirements Tracking System                   Low             No
     OST                 (CRRTS)
     OST                 DELPHI                                       Moderate          No
     RITA                Transtats                                     High             No
    Source: OIG
a
    See Exhibit B for full Operating Administration names.
b
    NHTSA "Mission Based Moderate Impact System" is composed of 4 systems (GTS, VSH, MVII, CARSII)
    which increased the C&A sample systems reviewed from 30 to 33



    As required, we submitted to OMB qualitative assessments pertaining to DOT’s
    information security program and practices. OMB requires that our FISMA
    submission include information from all DOT Operating Administrations,
    including OIG. In addition to preparing our submission, we reviewed the
    Department’s progress in resolving weaknesses and implementing
    recommendations identified in our prior year’s FISMA report.

    We performed our information security review work between March 2010 and
    October 2010.      We conducted our work at departmental and Operating
    Administration Headquarters offices in the Washington, D.C., area. We conducted
    our audit in accordance with generally accepted government auditing standards.
    Those standards require that we plan and perform the audit to obtain sufficient,
    appropriate evidence to provide a reasonable basis for our findings and
    conclusions based on our audit objectives. We believe that the evidence obtained
    provides a reasonable basis for our findings and conclusions based on our audit
    objectives.

    Generally accepted government auditing standards require us to disclose
    impairments of independence or any appearance thereof. OMB requires that the
    FISMA template include information from all DOT OAs, including OIG. Because
    the OIG is a small component of the Department, based on number of systems,
    any testing pertaining to the OIG or its systems does not impair our ability to
    conduct this mandated audit.

    Previous audit reports on the Department’s information security program issued in
    response to the FISMA legislative mandate (formerly the Government Information
    Security Reform Act) include:

    Exhibit A. Scope and Methodology
                                                                          33



Audit of DOT's Information Security Program and Practices, FI-2010-023,
November 18, 2009;
Audit of Information Security Program, FI-2009-003, October 8, 2008;
Information Security Program, FI-2008-001, October 10, 2007;
Information Security Program, FI-2007-002, October 23, 2006;
Information Security Program, FI-2006-002, October 7, 2005;
Information Security Program, FI-2005-001, October 1, 2004;
Information Security Program, FI-2003-086, September 25, 2003;
Information Security Program, FI-2002-115, September 27, 2002; and
Information Security Program, FI-2001-090, September 7, 2001.




Exhibit A. Scope and Methodology
                                                                                                         34


    EXHIBIT B. DOT OPERATING ADMINISTRATIONS AND SYSTEM
    INVENTORY COUNTS


     Operating Administrationa                                                  FY 2010       FY 2009

     Federal Aviation Administration (FAA)                                        290           274

     Federal Highway Administration (FHWA)                                         22               21

     Federal Motor Carrier Safety Administration (FMCSA)                           21               21

     Federal Railroad Administration (FRA)                                         13               12

     Federal Transit Administration (FTA)                                          5                5

     Maritime Administration (MARAD)                                               21               10

     National Highway Traffic Safety Administration (NHTSA)                        11               10

     Office of Inspector General (OIG)                                             2                2

     Office of the Secretary (OST)                                                 33               36
     Pipeline and Hazardous Materials Safety Administration
                                                                                   6                5
     (PHMSA)
     Research and Innovative Technology Administration (RITA)                      13               10

     Saint Lawrence Seaway Development Corporation (SLSDC)                         1                1

     Surface Transportation Board (STB)                                            2                2

          Total Systems                                                           440           409
    Source: OIG, and DOT CSAM as of August 6, 2010
a
    For purposes of reporting under FISMA, we consider "Operating Administrations" to include all
     components listed above.




    Exhibit B. DOT Operating Administrations and System Inventory
               Counts
                                                                                       35


EXHIBIT C. Status of Prior Year’s Recommendations

Recommendation
Number           FY 2009 Recommendation                                       Status
                 Revise the incident response policy to identify
                 conditions under which incidents should be reported to
       1         law enforcement (i.e., OIG), how the reporting should        Open
                 be performed, what evidence should be collected, and
                 how it should be collected
                 Revise the security awareness and training policy to
                 include the identification of all users, such as
                 employees, contractors, and others requiring access to
       2                                                                      Open
                 DOT information systems. Include provisions in the
                 policy to separate these active user accounts from the
                 non-person accounts.
                 Revise training policy to list the job functions that
                 require specialized security training and the type of
       3                                                                      Open
                 specialized training that is required for those job
                 functions as described in NIST SP 800-16.
                 Revise policy to address security of information and
                 information systems managed by contractors,
                 including information security roles and
       4         responsibilities, security control baselines and rules for   Open
                 departures from baseline, and rules of behavior for
                 contractors and minimum repercussions for
                 noncompliance.
                 Revise the interface agreement policy to incorporate
                 necessary elements, such as purpose of the
                 interconnection, description of security controls,
       5                                                                      Open
                 schematic of interconnection, timelines for terminating
                 or reauthorizing the interconnection, and authority of
                 establishing the interconnection.
                 Revise the plan of action and milestones policy to
                 address all the OMB requirements, including
       6         description of weakness, scheduled completion date,          Closed
                 key milestones, changes to milestones, source of the
                 weakness, and status.
                 Ensure that the Federal Aviation Administration, Saint
                 Lawrence Seaway Development Corporation, and
                 Pipeline and Hazardous Materials Safety
       7                                                                      Open
                 Administration have deployed DOT approved
                 configuration baselines and tools to assess
                 implementation status.
                 Use automated tools to periodically verify status of
                 completion reported by Operating Administrations and
       8                                                                      Open
                 identify deviations from the approved baseline
                 configurations.




Exhibit C. Status of Prior Year’s Recommendations
                                                                                     36


Recommendation
Number           FY 2009 Recommendation                                     Status
                 Require Operating Administrations to manage
                 identified deviations from approved baseline
                 configurations by tracking and resolving significant       Open
       9
                 baseline configuration weaknesses in plan of actions
                 and milestones.
                 Work with Operating Administration Chief Information
                 Officers to ensure that all new IT contracts include the
                                                                            Open
      10         acquisition language on common security
                 configurations as required by DOT and OMB M-07-18.
                 Work with the CSMC to develop a process to ensure
                 that all Department of Homeland Security reference
                                                                            Open
      11         numbers are received and entered into the DOT
                 tracking system for confirmation.
                 Develop and establish a tracking system that
                 effectively and routinely accounts for all active          Open
      12
                 contractors requiring security awareness training.
                 Develop a mechanism to enforce that all employees
                 including contractors with login privileges have
                 completed the required annual security awareness           Open
      13
                 training in order to gain and maintain access to
                 Department information systems.
                 Identify and ensure all employees with significant
                 security responsibilities take the necessary specialized   Open
      14
                 security training to fulfill their responsibilities.
                 Monitor, and report to the Deputy Secretary, Operating
                 Administrations’ progress in resolving long overdue
                 security weaknesses, reestablishing target completion
                 dates in accordance with departmental policy,
                                                                            Open
      15         providing cost estimation for fixing security
                 weaknesses, prioritizing weaknesses, and recording all
                 identified security weaknesses in plan of actions and
                 milestones.
                 Ensure accurate information is used to monitor
                 Operating Administrations’ progress in correcting          Open
      16
                 security weaknesses.
                 Require Chief Information Security Officer and
                 Operating Administrations conduct a review to identify
                 all interfaces with systems external to the Department,
                                                                            Open
      17         ensure related security agreements are adequate, and
                 track them in the Cyber Security Assessment and
                 Management system.
                 Ensure that Maritime Administration properly
                 inventories its information systems and tracks them in
                                                                            Open
      18         the Cyber Security Assessment and Management
                 system. (MARAD)
                 Ensure that Maritime Administration certifies and
                 accredits each system in the revised inventory.            Open
      19
                 (MARAD)


Exhibit C. Status of Prior Year’s Recommendations
                                                                                    37


Recommendation
Number           FY 2009 Recommendation                                    Status
                 Improve its quality assurance checks on the Operating
                 Administrations’ certifications and accreditations by
                 increasing the frequency and scope of its checks,
                 communicating results and expected actions to the
                 Operating Administrations, requiring updated plan of      Open
        20
                 actions and milestones to address weaknesses noted
                 (including those found in the Inspector General
                 reviews), and follow-up on resolution of weaknesses
                 noted.
                 Require Federal Aviation Administration, Federal
                 Highway Administration, Federal Railroad
                 Administration, Maritime Administration, Office of the
                 Secretary of Transportation and Pipelines and             Open
        21
                 Hazardous Materials Safety Administration to conduct
                 system contingency testing of the systems that did not
                 have evidence that of such tests.
                 Develop a process to ensure Operating
                 Administrations continuously monitor and test             Open
        22
                 information system security controls.
                 Finalize the inventory count for systems containing
                                                                           Closed
        23       privacy information.
                 Work with Operating Administrations to complete
                 privacy impact assessments for applicable information     Open
        24
                 systems.
                 Work with the Federal Aviation Administration to
                 establish a reasonable target date for the completion
                                                                           Open
        25       of the reduction of social security numbers recorded in
                 its systems.
                 Implement 2-factor authentication for remote access.      Open
        26
                 Implement NIST-approved encryption on all mobile
                                                                           Open
         27      computers/devices.
Source: OIG




Exhibit C. Status of Prior Year’s Recommendations
                                                            38


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
Name                               Title

Louis C. King                      Program Director

Michael Marshlick                  Project Manager

Lissette Mercado                   Project Manager

Martha Morrobel                    Information Technology
                                   Specialist

James Mullen                       Information Technology
                                   Specialist

Tim Roberts                        Information Technology
                                   Specialist

Tracy Colligan                     Information Technology
                                   Specialist

Petra Swartzlander                 Statistician

Susan Neill                        Writer-Editor




Exhibit D. Major Contributors to this Report
                                39


APPENDIX. MANAGEMENT COMMENTS




Appendix. Management Comments
                                40




Appendix. Management Comments
                                41




Appendix. Management Comments
                                42




Appendix. Management Comments
                                43




Appendix. Management Comments
                                44




Appendix. Management Comments
